<html>
<title> - IMPACT ON LOCAL COMMUNITIES OF THE RELEASE OF UNACCOMPANIED ALIEN MINORS AND THE NEED FOR CONSULTATION AND NOTIFICATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                      IMPACT ON LOCAL COMMUNITIES
                    OF THE RELEASE OF UNACCOMPANIED
                       ALIEN MINORS AND THE NEED
                   FOR CONSULTATION AND NOTIFICATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-122

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
91-742                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
RAUUL LABRADOR, Idaho                JOE GARCIA, Florida
GEORGE HOLDING, North Carolina       PEDRO R. PIERLUISI, Puerto Rico
[Vacant]

                     George Fishman, Chief Counsel



                            C O N T E N T S

                              ----------                              

                           DECEMBER 10, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Raul Labrador, a Representative in Congress from 
  the State of Idaho, and Member, Subcommittee on Immigration and 
  Border Security................................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     5
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     7

                               WITNESSES

The Honorable Lou Barletta, a Representative in Congress from the 
  State of Pennsylvania
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
The Honorable Adrian Smith, a Representative in Congress from the 
  State of Nebraska
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
The Honorable Pete Olson, a Representative in Congress from the 
  State of Texas
  Oral Testimony.................................................    22
  Prepared Statement.............................................    23
The Honorable Joseph Crowley, a Representative in Congress from 
  the State of New York
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28
Leonard Scarcella, Mayor of Stafford, Texas
  Oral Testimony.................................................    34
  Prepared Statement.............................................    36
Jessica M. Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42
Thomas M. Hodgson, Sheriff of Bristol County, Massachusetts
  Oral Testimony.................................................    51
  Prepared Statement.............................................    53
Kristyn Peck, Associate Director of Children's Services, U.S. 
  Conference of Catholic Bishops
  Oral Testimony.................................................    55
  Prepared Statement.............................................    74

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     8
Material submitted by Kristyn Peck, Associate Director of 
  Children's Services, U.S. Conference of Catholic Bishops.......    56
Material submitted by the Honorable Raul Labrador, a 
  Representative in Congress from the State of Idaho, and Member, 
  Subcommittee on Immigration and Border Security................    83
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    90
Material submitted by the Honorable Raul Labrador, a 
  Representative in Congress from the State of Idaho, and Member, 
  Subcommittee on Immigration and Border Security................   118

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Questions for the Record from Jessica M. Vaughan, 
  Director of Policy Studies, Center for Immigration Studies.....   124
Response to Questions for the Record from Thomas M. Hodgson, 
  Sheriff of Bristol County, Massachusetts.......................   127

 
   IMPACT ON LOCAL COMMUNITIES OF THE RELEASE OF UNACCOMPANIED ALIEN 
         MINORS AND THE NEED FOR CONSULTATION AND NOTIFICATION

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 2:55 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Rauul 
R. Labrador presiding.
    Present: Representatives Gowdy, Goodlatte, Smith, Jordan, 
Labrador, Lofgren, Conyers, Jackson Lee, Gutierrez, and Garcia.
    Staff Present: (Majority) Dimple Shah, Counsel; Graham 
Owens, Clerk; and (Minority) Tom Jawetz, Counsel.
    Mr. Labrador. The Committee will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everybody to today's hearing on the impact of 
unaccompanied minors and the need for consultation and 
notification with local communities. And I begin by recognizing 
myself for an opening statement.
    The President's November 20 actions to grant deferred 
action on work permits to up to 5 million illegal aliens 
continued a long pattern of Executive overreach. The President 
has sought to rewrite immigration laws passed by Congress by 
taking administrative action via policy memoranda.
    In our constitutional system, however, it is Congress that 
has plenary constitutional authority to establish U.S. 
immigration policy. Fundamental reform, which I support, 
requires democratic deliberation, public oversight, and, most 
of all, legislative action by Congress.
    The President's policies to grant deferred action and not 
remove newly arriving undocumented aliens led to a surge of 
illegal immigration that reached its height earlier this year. 
In massive numbers, these aliens are being moved by the 
Administration into local communities throughout the United 
States.
    This hearing will focus on the consequences of the 
President's actions in these communities and the need for the 
Federal Government to show them basic respect by notifying them 
of any immigrants being placed in their jurisdictions.
    President Obama's 2012 directive granting deferred action 
to almost a million people here illegally who arrived as 
children spurred a surge of illegal immigration by young people 
from Central America. In 2012, the number of apprehended 
unaccompanied alien minors, referred to as UAMs, increased by 
over 100 percent from 2011.
    In 2013, the Senate passed a bill that gave children of 
illegal aliens legal status as long as they arrived before the 
passage of the bill. That year, the number increased by another 
80 percent. In 2014, the President promised to issue another 
grant of Executive legalization, and the number increased by 
almost 180 percent.
    At the same time, the number of family units arriving 
illegally shot up nearly 360 percent. Many point to violence in 
Central America as the reason for the surge. Unfortunately, as 
we all know, there has always been violence in Central America. 
The only factor that has changed, and correlates directly with 
the surge on our southern borders, is the Obama 
administration's policies.
    In May 2014 interviews, approximately 95 percent of over 
200, ``other-than-Mexican'' family units and UAMs told Border 
Patrol agents at Texas stations that they chose to immigrate to 
take advantage of a new law that grants a ``permiso'' to UAMs 
and to mothers with children.
    Despite this sudden surge and its clear explanation, the 
Obama administration actually deported 80 percent fewer minors 
than under the Bush administration in 2008. The reality is that 
almost 90 percent of UAMs are placed with family members in the 
U.S.
    This information is apparently common knowledge in Central 
America. According to those immigrants interviewed by Border 
Patrol, the ``permisos'' were apparently the notices to appear 
in removal proceedings issued to unlawful aliens under which 
they are released pending a hearing before an Immigration 
Judge.
    All of these children and families are ultimately placed 
into communities. Numerous jurisdictions are receiving a 
massive influx of UAMs as they are transferred to Department of 
Health and Human Services facilities and are reunited with 
families who are guardians. The impact has been felt across the 
country, imposing a variety of costs, such as for education, 
health care, policing, and criminal justice.
    Their municipal and State services need to be prepared for 
the impact of sometimes hundreds of new residents. Texas alone 
received nearly 5,300 children in just a 7-month period at the 
beginning of this year. Miami-Dade District in Florida reported 
that it had 300 more students in a single quarter of last year, 
which costs about $2,000 more per additional student. The 
school board has requested additional Federal funding. Many of 
these children don't know English. In New Orleans, it costs 
$2,400 to enroll an additional English language learner, but 
the Federal Government pitches in just $200.
    Local community leaders are displeased with the lack of 
communication from the Federal Government concerning the 
relocation of UAMs. Further, local officials are concerned 
about the health and welfare of communities in their 
jurisdictions, along with the impact of the expense associated 
with dealing with this new population of taxpayers.
    In short, Governors and mayors have the right to know when 
the Federal Government is transporting a large group of 
individuals--in this case undocumented immigrants--into their 
jurisdiction. So far, HHS has refused to provide them with that 
information. In fact, a May 2013 report by The Pew Charitable 
Trusts stated that, ``Once the children are placed with 
sponsors, the Federal Government often loses track of them.''
    In numerous instances, the unaccompanied alien minors are 
being sent to localities until deportation proceedings 
conclude, despite disapproval by the local jurisdiction. 
Department of Justice officials have indicated that a large 
number of unaccompanied alien minors scheduled for deportation 
hearings never appear for their hearings.
    Due to the massive backlog of deportation hearings, those 
immigrants that do appear are likely to remain in their 
localities for years. The Obama administration has released 
these individuals without notifying State and local officials. 
The Administration has refused to respond to lawmakers' 
requests for information about plans to relocate UAMs in their 
communities. One Governor said that his State learned from 
media reports that hundreds of children were placed in his 
State.
    In order to address this problem, a number of Members of 
Congress have introduced legislation requiring the Federal 
Government to notify State officials if UAMs are placed in 
their States. These various pieces of legislation address the 
need for States to be informed about the actions that the 
Federal Government is taking that impact their communities.
    With that, I thank our witnesses for their willingness to 
testify today.
    It is now my pleasure to recognize the Ranking Member of 
the Subcommittee on Immigration and Border Security, Ms. 
Lofgren of California, for her opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Before I turn to the topic of today's hearing, I have to 
note that we are now just a matter of days away from returning 
to our districts and declaring an end to the 113th Congress.
    This Congress began with incredible promise. Just days 
after the 2012 election, Speaker Boehner declared, ``This issue 
of immigration reform has been around far too long.'' And he 
said, ``A comprehensive approach is long overdue.''
    Unfortunately, immigration reform will have to wait a 
little longer because, for the second time in 8 years, 
Republican leaders in the House have refused to bring to the 
floor an immigration bill passed by the U.S. Senate with strong 
bipartisan support.
    Of course, that isn't all that we are leaving undone. This 
summer, when the President requested emergency spending to 
respond to the increased number of unaccompanied children 
apprehended along our southwest border, Republican leaders in 
the House chose not to pass a clean bill providing necessary 
funding and instead paired a spending bill with dangerous 
language rolling back longstanding protections for 
unaccompanied children fleeing the violence and persecution.
    And in the next few days, the House is expected to pass the 
so-called Cromnibus, a bill that provides annual appropriations 
for every aspect of the Federal Government except for the 
department in charge of Homeland Security, emergency 
management, Presidential security, and the like.
    We are told that the irresponsible politics of brinkmanship 
is a thing of the past, but withholding long-term funding for 
the Department of Homeland Security seems motivated by the 
desire to revisit the issue of immigration when Republicans 
have a larger majority in the House and control of the Senate. 
It looks like the politics of brinkmanship may just be on 
temporary hold. We will see in a few short months.
    On today's hearing, I think it is worth noting that 
although the hearing title refers to the impact on local 
communities of the release of unaccompanied children, only one 
of the bills that we will be hearing about on the first panel 
addresses that point.
    The bills introduced by Representative Barletta, 
Representative Olson, and Representative Sensenbrenner, our 
longtime colleagues on the Judiciary Committee, deal 
exclusively with the process by which the Federal Government 
contracts with providers to house unaccompanied children in the 
custody of the Office of Refugee Resettlement within the 
Department of Health and Human Services.
    Children housed in such facilities are under staff 
supervision at all times and are not integrated into the local 
community. They do not attend public schools. They receive all 
of their food, shelter, clothing, education, and medical 
services in accordance with the terms of a contract or grant 
managed by HHS.
    Now, over the summer, when the country became focused on 
the spike of unaccompanied children arriving in Texas, many 
communities generously offered to locate HHS facilities to 
house these children. In my own district, Representative Mike 
Honda, Anna Eshoo, and myself joined together with the mayor of 
San Jose, the Santa Clara County Board of Supervisors, and 
others to issue a statement expressing our willingness to help.
    However, some communities reacted very negatively when HHS 
was trying to locate temporary shelters so that the agency 
could comply with its legal requirements and we could avoid the 
terrible situation of having little children in cold, crowded, 
concrete Border Patrol cells for weeks, literally weeks, on 
end.
    Now, I think much of the objection was motivated by fear, 
but I think a good bit may also have been motivated by a 
misunderstanding about precisely what was being done. Now, I 
believe some communities may not have understood that placement 
in an ORR facility pending release to a sponsor and, again, in 
compliance with longstanding legal requirements would not 
result in a flood of children enrolling in schools and 
receiving medical services at the local emergency room. If 
anything, locating an HHS shelter in a community may provide 
job opportunities and demands for goods and services. So I hope 
we can clear that confusion up today.
    One final point on these bills. I certainly do not object 
to the idea that the Federal Government should consult with 
State and local governments and increase the engagement of 
local communities. Like many Members, I was frustrated at times 
this summer by HHS's failure to provide clear information to 
the public and to Members of Congress regarding the need for 
additional housing. For communities like mine that wanted to be 
part of the solution, that wanted to bring children to Santa 
Clara County and help take care of them, the lack of 
information was counterproductive.
    But I do have concerns about the ways several of these 
bills would impose the notification and consultation 
requirement. Erecting substantial bureaucratic hurdles before 
HHS can award a grant could prove very troublesome and mean 
that children will be backed up in Border Patrol holding cells, 
which is really not suitable.
    Having visited these Border Patrol stations over the summer 
and to see these small children, 8-, 9-, and 10-year-old kids 
jammed in, sleeping on the floor, it is really a national 
disgrace. And so many of these children have fled record 
violence in Central America. Their treatment and holding in 
these cells is really not something that we want.
    Now, of course, when a child is released to an appropriate 
sponsor in accordance with current law, it will have some 
impact on the local community. The Supreme Court has long held 
that all children, regardless of status, are eligible to attend 
public school. And as the Chairman has said, often these 
children may require additional ESL services, for example.
    Every single State, including the District of Columbia, 
received at least one child who was placed in the custody of a 
suitable sponsor. But over half the children were placed with 
sponsors in just a few areas: California, Florida, New York, 
Texas, and the D.C. metro area. These are the areas with large 
Central American immigrant communities. And, importantly, many 
of these communities most heavily impacted have responded to 
the situation in a responsible and compassionate manner.
    I would note also that the Cromnibus that is before us 
provides $14 million in new funding for schools that have 
experienced a significant increase in the number of immigrant 
children enrolled in the current school year--a recognition 
that we should share in the additional burdens that schools 
will face in taking care of these children.
    With that, I would yield back the balance of my time.
    Mr. Labrador. Thank you, Ms. Lofgren.
    It is now my pleasure to recognize the Chairman of the 
Judiciary Committee, Mr. Goodlatte of Virginia, for his opening 
statement.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Chairman, it would have been wise and a good thing if 
the President had acknowledged the will of the voters in the 
elections last month and allowed time for the new Congress, the 
new House and the new Senate, to work on immigration reform.
    But, instead, the President has chosen his own version of 
brinkmanship. In fact, he has gone over the brink in what is 
one of the most massive constitutional power grabs that I have 
seen any President undertake in American history. This causes 
the House and the new Senate to focus on restraining the 
President and protecting the constitutional authority under 
Article I of the Congress to write immigration laws.
    Now, as we see the ramifications of this, one of those is 
the subject of the hearing that we have here today. Already, 
even before the President's unconstitutional action, based upon 
his earlier unconstitutional actions, we have seen a surge at 
the border.
    And based on numerous reports, it is apparent that word has 
passed through the grapevine back to Central America that 
women, children, and families who infiltrate the border are 
released into our communities. The only way to deter and stop 
the flow into the United States is to change such expectations 
by implementing consequences.
    Through one Executive action after another, the Obama 
administration has sent a signal to unlawful immigrants that, 
once they get here, they can remain here in violation of the 
law without consequence. When the former head of ICE under the 
Obama administration, John Sandweg, says, ``If you are a run-
of-the-mill immigrant here illegally, your odds of getting 
deported are close to zero,'' news of that reality travels by 
word of mouth at the speed of sound. Prospective unlawful 
immigrants jump at the opportunity.
    The President just reiterate this message with his recent 
announcement of an unconstitutional Executive legalization for 
millions of unlawful aliens. Indeed, on November 20th, 2014, 
President Obama announced one of the biggest constitutional 
power grabs ever by a President. He has declared unilaterally 
that, by his own estimation, more than 4 million unlawful 
immigrants will be free from the legal consequences of their 
lawless actions. Not only that, he will, in addition, bestow 
upon them gifts such as work authorization and other 
immigration benefits.
    This, despite the fact that President Obama has stated over 
20 times in the past that he doesn't have the constitutional 
power to take such steps on his own.
    Additionally, the remaining illegal population, even if 
encountered by law enforcement, will likely never be removed 
due to President Obama's rewrite of his Administration's own 
so-called immigration enforcement priorities. Steps needed to 
reduce the surge at the border, changes in the Administration's 
permissive approach to immigration enforcement, simply are not 
being taken.
    An unaccompanied alien minor is a child who has no lawful 
immigration status in the United States, has not attained 18 
years of age, and with respect to whom there is no parent or 
legal guardian in the United States or no parent or legal 
guardian in the United States available to provide care and 
fiscal custodian.
    When these minors are apprehended, by law they are placed 
into the custody of the Office of Refugee Resettlement within 
the Department of Health and Human Services. The Trafficking 
Victims Protection Reauthorization Act requires all Federal 
agencies to transfer these children to HHS within 72 hours of 
identification. Housing the unlawful migrants costs American 
taxpayers $252 per child per day, and children remain in HHS 
custody for an average length of stay of 67 days.
    The unaccompanied minors are often brought across the 
border by smugglers, who are paid by the children's parents, 
who are already in the U.S. illegally. Once in HHS custody, 
they are most often subsequently reunited with a parent or 
legal guardian pursuant to Department of Homeland Security 
policy and regulation. Oftentimes, the person they are reunited 
with is the same person who paid to smuggle the minor here in 
the first place.
    Numerous jurisdictions are receiving a massive influx of 
unaccompanied minors as they are transferred to HHS facilities 
and then released and reunited with families or guardians. The 
impact has been felt in nearly every single State, with the 
highest number of placements in Texas, California, New York, 
Virginia, and Maryland.
    Indeed, HHS had planned to house UAMs at a recently closed 
college in Virginia. Saint Paul's College in Lawrenceville was 
being eyed to house 500 unaccompanied alien minors, mostly from 
Central America, who were apprehended at the U.S.-Mexico 
border. A contract signed on June 12 would have given Saint 
Paul's College, which closed last year amid financial 
difficulties and accreditation issues, $160,000 a month for the 
next 5 months.
    It was not until Friday, June 13, that the local government 
received an email notification after-hours from the Federal 
Government that a contract had been signed and implementation 
had started. It was further stated that it was a done deal and 
that HHS would start delivering minors on Thursday, June 19. 
But the done deal unraveled after local residents expressed 
outrage over the plan.
    Across the country, the new population of minors has caused 
a drain on public education, health care, welfare, emergency 
management, and other public services. To make matters worse, 
there appears to be no real notification process from HHS to 
notify the communities in which these minors are being sent.
    Unfortunately, President Obama's self-made border crisis 
has created many negative consequences for our country. And the 
States have arguably been impacted the most by the 
Administration's disastrous policies.
    As tens of thousands of unaccompanied children and 
teenagers from Central America have flooded our borders, the 
Obama administration has refused to take the steps necessary to 
return them home quickly and safely. It instead has placed 
these minors in all 50 States while their cases work their way 
through the system.
    Because there is no procedure in place to notify State 
governments when these children are dropped off, States have 
been forced to pick up the pieces and clean up the Obama 
administration's mess. At the very least, in order to be 
adequately prepared to deal with this population, communities 
must be notified with regard to who will arrive.
    Today we will hear from local officials who have dealt with 
this problem firsthand and also hear from several Members of 
Congress who have introduced legislation to address this 
pressing issue.
    I thank you, Mr. Chairman, and yield back.
    Mr. Labrador. Thank you, Chairman Goodlatte.
    It is now my pleasure to recognize the Ranking Member of 
the Judiciary Committee, Mr. Conyers of Michigan, for his 
opening statement.
    Mr. Conyers. Thank you, Chairman Labrador.
    I ask unanimous consent to enter into the record a letter 
from 12 mayors and 1 county executive that is entitled ``We 
Will Provide Compassion and Care for Children: A Statement of 
the Nation's City and County Leaders.''
    Mr. Labrador. Without objection.
    Mr. Conyers. Thank you very much.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Conyers. Now, Mr. Chairman, here we are in the final 
days of the 113th Congress, the final hearing before the 
Immigration Subcommittee. And so what can we say in this 
Congress that Congress has done to fix the immigration system 
that we all agree is failing our businesses, our communities, 
and, most of all, our American families?
    It has been 531 days since the Senate passed bipartisan 
comprehensive immigration reform legislation that would have 
made meaningful and long-overdue reforms. A similar House bill, 
H.R. 15, has 201 bipartisan cosponsors. The Congressional 
Budget Office reports that we could reduce our budget deficit 
by $900 billion over 20 years through these proposals.
    But House leadership has steadfastly refused to bring 
either measure to the floor. Instead, the only immigration 
legislation that has been considered on the House floor has 
focused on attacks on the Administration, some of which we hear 
in the Judiciary Subcommittee, and hardworking immigrants.
    We have considered legislation to strip protections from 
child victims of trafficking, persecution, torture, and abuse. 
The House leadership has also brought bills to the floor to 
strip deferred action from children who have received 
protection under the Deferred Action for Childhood Arrivals, 
DACA, program, and to prevent the Administration from offering 
similar protections to the parents of the United States 
citizens and lawful permanent residents who meet the strict 
criteria.
    None of these bills would have helped fix our broken 
immigration system, and none of them ever represented a serious 
effort to legislate. I note all of this because I am 
disappointed that we were not able to come together on 
bipartisan legislative solutions to our broken immigration 
system.
    While we may be ending the 113th Congress with more of a 
whimper than a bang, I do nonetheless remain hopeful that, in 
the 114th Congress, Members from both sides of the aisle will 
come together to finally pass comprehensive legislative reform. 
And I, of course, remain ready to work with my colleagues on 
this and many other important issues.
    Now, let me turn to the specific topic of today's hearing.
    This Committee last examined the issue of unaccompanied 
children coming to our country from Central America in late 
June. At that hearing, we learned that tens of thousands of 
children were fleeing extreme violence in Honduras, El 
Salvador, and Guatemala.
    And after unaccompanied children are apprehended along the 
border, guess what? Our laws require that they be transferred 
to the custody of the Department of Health and Human Services 
within 72 hours. HHS houses these children pursuant to grants 
or contracts and provides for their basic needs, such as food, 
clothing, shelter, education, and medical and mental health 
services.
    Our laws also require that they may be, quote, ``promptly 
placed in the least restrictive setting that is in the best 
interest of the child,'' end quote. This is typically with a 
parent or other sponsor who assumes the responsibility of 
caring for the child.
    Certainly, there are costs associated with taking in a 
child. Most are borne by sponsors themselves, but some are 
undoubtedly borne by the community. Thankfully, mayors from 
across the country, from Los Angeles to Boston, from Tucson to 
Atlanta, came together to call on their communities to offer 
help.
    In a statement issued on October the 1st, these mayors 
wrote, ``As leaders of the Nation's cities and counties, we 
remind the American public that the moral compass of our Nation 
resides in our local communities. As Americans, we will not 
turn our backs on children.''
    I ask unanimous consent--well, we placed that letter in 
the----
    Mr. Labrador. Without objection, it shall be placed.
    Mr. Conyers. Thank you.
    And I conclude. The arrival of thousands of unaccompanied 
immigrant children along our borders is a challenging and 
complex issue, no question about it. But as many communities 
have demonstrated, we can rise to these challenges and respond 
in compassionate ways that reflect the best of our American 
values.
    Thank you very much, Chairman Labrador.
    Mr. Labrador. Thank you, Mr. Conyers.
    Without objection, additional Members' opening statements 
will be made a part of the record.
    We now thank our distinguished first panel for joining us 
today.
    If you would please rise, I will begin by swearing you in.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Let the record reflect that all witnesses responded in the 
affirmative.
    Thank you, and please be seated.
    First, the Honorable Lou Barletta. Congressman Barletta, 
who has represented the 11th District of Pennsylvania since 
2011, currently serves on the Committee on Homeland Security. 
On September 8th, 2014, Mr. Barletta introduced H.R. 5409, the 
Unaccompanied Alien Children Transparency Act. This bill 
requires the Federal Government to inform States and localities 
of relocation plans in advance and would require the Federal 
Government to certify to the States that the minors will not 
pose a health or public safety risk to the community.
    Congressman Adrian Smith, who has represented the Third 
District of Nebraska since 2007, serves on the Committee on 
Ways and Means. On July 17th, 2014, Mr. Smith introduced H.R. 
5129, the UAC State Notification Act, which would require HHS 
to give States advance notice when unaccompanied minors are to 
be placed in a State.
    Next, the Honorable Pete Olson. Congressman Olson has 
represented the 22nd District of Texas since 2009 and currently 
serves on the Energy and Commerce Committee. On July 17th, 
2014, Mr. Olson introduced H.R. 5138, the Our Communities, Our 
Choice Act. This bill requires consultation with State and 
local officials regarding the location of the facility, as well 
as the duration of the award, and issues regarding safety, 
security, and funding of the facility.
    And last but not least, the Honorable Joe Crowley, our 
final witness in this panel, who has represented the 14th 
District of New York since 1998 and currently serves on the 
Committee on Ways and Means. Prior to being elected to the U.S. 
House of Representatives, Mr. Crowley represented the 30th 
Assembly District in the New York State legislature and ran a 
small business. He graduated with a bachelor's degree from 
Queens College.
    I ask that each witness summarize his testimony in 5 
minutes or less. To help you stay within that time, there is a 
timing light on your table. When the light switches from green 
to yellow, you will have 1 minute to conclude your testimony. 
When the light turns red, it signals that the witness' 5 
minutes have expired.
    And if we could now hear from all the witnesses, starting 
with Mr. Barletta.

  TESTIMONY OF THE LOU BARLETTA, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Barletta. Chairman Labrador, Ranking Member Lofgren, 
Members of the Subcommittee, thank you for inviting me to 
testify today about my legislation, H.R. 5409, the 
Unaccompanied Alien Children Transparency Act.
    My bill would empower Governors and local elected officials 
to control whether or not the Federal Government can place into 
their communities unaccompanied alien minors who entered the 
country unlawfully.
    The United States Department of Health and Human Services 
sent thousands of unaccompanied alien minors to communities 
across America following this summer's border surge, including 
660 in Pennsylvania, often without any notification or regard 
as to whether a community is prepared to receive them.
    City officials in my hometown of Hazleton, Pennsylvania, 
brought this issue to my attention after they had been 
contacted by a nonprofit group about housing unaccompanied 
alien minors at a location right across the street from my 
district office. That is how I found out: Because an 
organization had called the city. The Federal Government didn't 
tell anyone about the plan--not the Governor, not the 
Department of Public Welfare, not Luzerne County.
    When I made the information public, residents of Hazleton 
expressed their concerns, and the plan was dropped. Had I not 
been informed of the situation by local officials, the plan 
would have proceeded without public notice.
    We learned an important lesson in that episode: that the 
Federal Government is working with organizations across the 
country to place unaccompanied alien minors in various 
communities without telling anyone in the State or locality 
that they are doing so.
    That is what prompted me to introduce H.R. 5409. My bill 
would require HHS to provide State and local elected officials 
with a 30-day notice-and-comment period to determine for 
themselves whether they are prepared and able to receive 
unaccompanied alien minors.
    In particular, HHS would be responsible for assessing and 
informing communities of the cost and impact of receiving them. 
The Department must also certify that the unaccompanied alien 
minors have undergone health screenings, including 
vaccinations, as well as undergo a criminal background check 
and pose no public health or safety threat. Such steps are 
vital to ensuring the welfare of our communities.
    I have already been informed of several instances of 
unaccompanied alien minors seeking to enter schools in my 
district who have not been properly screened or vaccinated. 
They have absolutely no formal education and cannot speak 
English. These students, who are 17 years old--not 1 day of 
formal education whatsoever and no ability to speak English--
what grade should the school system put them in? How can a 
school district be prepared when students like this just show 
up at their doorsteps?
    It is critical that State and local governments are not 
left in the dark. Lawmakers must know who is coming to their 
communities, how much it will cost, and how it will impact 
their health and educational system, which is why my bill gives 
local communities veto power if this information is not 
provided to their satisfaction.
    Now, I wish we didn't need legislation like mine, but, 
unfortunately, my bill is needed due to the total lack of 
transparency by the Administration following the surge of 
crossings over the southern border. In fact, more than 66,000 
unaccompanied alien minors crossed our southern border in 
fiscal year 2014.
    This represents a tenfold increase in crossings by 
unaccompanied alien minors since 2011. Roughly three-fourths of 
them are males ages 14 to 17. So we asked ourselves, what has 
changed? What has changed is the enforcement of our immigration 
laws.
    In 2011, President Obama, head of U.S. Immigration and 
Customs Enforcement, released a series of memoranda announcing 
his agency would not be enforcing immigration laws against 
certain segments of the illegal immigration population, 
effectively telling illegal immigrants that being in the 
country unlawfully was not reason enough to deport them.
    Then, in 2012, the President announced his DACA program, 
which grants deferred action to certain illegal immigrants who 
claim to have arrived in the United States before the age of 16 
and requires them to apply for a work permit.
    The President greatly expanded these programs in his recent 
announcement to grant amnesty and work authorizations to 
roughly 5 million illegal immigrants. He is telling people 
that, so long as they make it into this country, they won't be 
asked to leave and will be rewarded with a work permit, Social 
Security, and Medicare.
    I fear it will not be long before we see another massive 
surge of illegal immigration along our southern border. We saw 
it following the 1986 amnesty and after DACA. Now, with the 
President's plan to expand DACA and his other so-called 
prosecutorial discretion programs, bills such as my 
Unaccompanied Alien Children Transparency Act are more 
important now than ever.
    Thank you.
    Mr. Labrador. Thank you, Mr. Barletta.
    [The prepared statement of Mr. Barletta follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. We will now hear from Mr. Smith.

 TESTIMONY OF THE HONORABLE ADRIAN SMITH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Smith of Nebraska. Good afternoon, Chairman Labrador, 
Ranking Member Lofgren, Members of the Subcommittee. Thank you 
for the opportunity to participate in today's hearing on 
immigration and the need for State notification of 
unaccompanied minors.
    As you are very much aware, the situation at our southern 
border is extreme. Every year, thousands of illegal immigrants 
are able to cross our border and settle in the United States.
    I have heard from many Nebraskans concerned by the growing 
crisis at our southern border. The problem of illegal 
immigration is nothing new, but, this year, the surge of tens 
of thousands of unaccompanied children, mostly from Central 
America, crossing into our country has further strained our 
communities' resources.
    Families in Guatemala, Honduras, and El Salvador are 
sending their children alone to the United States because they 
believe they will have greater opportunities here. They are 
also being encouraged by the belief children will be allowed to 
stay in the United States if they make it across the border, 
even if they are undocumented. The President's decision to not 
enforce certain immigration laws has only made this problem 
worse.
    We need to address this issue not only to protect our 
national security and sovereignty but also to protect the very 
children being sent here. The border between the United States 
and Mexico is increasingly violent, as rival drug cartels fight 
for territory and smuggling routes. Unaccompanied children are 
especially at the risk of being subjected to violence, human 
trafficking, and sexual predators.
    The Department of Health and Human Services, which is 
responsible for caring for these children while they await 
immigration court hearings, places these unaccompanied minors 
in shelters or with sponsors across the country. Earlier this 
year, HHS estimated it had placed 200 children in the State of 
Nebraska with no prior notification. The State did not know 
where these children were, nor with whom they were staying.
    States have the right to know when the Federal Government 
is taking actions which impact their communities. These 
children obviously require resources. Some will require health 
care and other treatments. Many will seek education, including 
language training in our schools, which States are mandated to 
provide. All of these services will impact our States as well 
as local communities.
    Because of the effect of these placements on State and 
local resources, the Nebraska delegation supported our 
Governor, Dave Heineman, in his request to have this 
information provided to the State of Nebraska. HHS declined 
this request.
    Because of this, I introduced H.R. 5129, the UAC State 
Notification Act, which would require HHS to give States 
advance notice when unaccompanied minors are to be placed in a 
State. It is the companion bill to legislation introduced in 
the Senate by Senator Mike Johanns. It is also very similar to 
the bills my colleagues have introduced and will also discuss. 
All of these efforts show the importance of this issue.
    Notifying States of unaccompanied minors is in the best 
interests of the State, the people who live there, and 
especially the unaccompanied child. While we must secure our 
border, until that happens, we need to look at specific 
problems we can address. I would think State notification is 
one area on which we can all agree. More information is in 
everyone's best interest.
    I look forward to continuing to work on this issue as we 
continue to address our many immigration problems and because 
the wellbeing of children and our national security are too 
important to ignore.
    I also appreciate the Subcommittee's efforts in having this 
very important hearing today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Labrador. Thank you, Mr. Smith.
    [The prepared statement of Mr. Smith of Nebraska follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. We'll now hear from Mr. Olson.

  TESTIMONY OF THE HONORABLE PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. Chairman Labrador, Ranking Member Lofgren, 
Ranking Member of the Full Committee Mr. Conyers, thank you for 
holding this hearing to discuss my bill, H.R. 5138, the Our 
Communities, Our Choice Act.
    My bill addresses a problem many communities in America got 
a taste of this past summer: record numbers of kids coming 
across our southern border without their parents. Our Border 
Patrol captured 37,000 of these children in 2013. That number 
doubled this year. It may double again in 2015.
    Under current law, HHS sends these kids to live and go to 
school until the legal system decides what to do with them. 
Since local leaders are rarely consulted, the kids show up and 
our local leaders struggle to get the kids in school, find 
teachers that can speak the needed foreign languages, find new 
housing to live in, find new doctors. The local communities 
bear most of the financial burden, and many don't have the cash 
on hand to comply with an unfunded mandate coming from 
Washington, D.C.
    In Texas, if we have done something difficult in the past 
and are asked to do it again, we say, ``This ain't our first 
rodeo.'' And this is not southeast Texas' first rodeo with kids 
swarming our region. Over 250,000 of our neighbors from New 
Orleans evacuated to our region when Hurricane Katrina hit in 
2005. They needed homes, food, schools, health care, and they 
need it overnight.
    We accepted the challenge and took in all of our neighbors, 
but it was at a great cost to towns like Alvin, Manvel, Meadows 
Place, Missouri City, Fulshear, Rosenberg, and Stafford. My 
friend Leonard Scarcella from Stafford is on the second panel, 
and he will give you a description of what Stafford went 
through with Hurricane Katrina.
    These kids crossing our southern borders have gone through 
hell. My bill makes sure they don't go through hell again by 
putting them in a place where their needs will never, ever be 
met.
    My bill simply tells HHS to hit the pause button before 
they intend to bring these kids into a local community. Tell 
the county officials, the mayors, the school boards, and the 
hospitals where these kids will be detained what are their 
issues, how many boys, how many girls, what grade levels, what 
health issues, what languages are spoken. Tell them before it 
is imposed upon them. Give them 90 days to respond with what 
they can do and what they can't do.
    We can't stop HHS from going forward, but we can make sure 
they know exactly what they are doing so they don't put these 
kids through hell again.
    I look forward to working with the entire Committee next 
year to make this bill a reality.
    Thank you.
    Mr. Labrador. Thank you, Mr. Olson.
    [The prepared statement of Mr. Olson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. Now we will hear from the honorable gentleman 
from New York, Mr. Crowley.

TESTIMONY OF THE HONORABLE JOSEPH CROWLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Crowley. Thank you, Mr. Chairman. Good afternoon to you 
and to my good friend Ms. Lofgren, as well as Mr. Conyers and 
to Mr. Garcia from Florida. And thank you for being here today 
and hearing my testimony.
    As mentioned, I am Congressman Joe Crowley. I represent the 
14th Congressional District in New York, which takes in parts 
of Queens and the Bronx. My district has been called the most 
ethnically diverse congressional district in our Nation. I like 
to call it the new Ellis Island of America. And for 
generations, it has been home to new immigrants.
    New York City has always been proud to welcome immigrants, 
whether through Ellis Island, JFK Airport, or the Port 
Authority Bus Terminal. We welcome immigrants who are coming 
here to make a better life for themselves and for their 
children, but we also welcome those who are fleeing danger and 
violence, like these children from Central America.
    Despite what you might hear from critics about why these 
children came here, they endured unimaginable struggle and 
danger to come here for the chance at not just a better life 
but a chance at life at all. It is a life-or-death situation 
for these children, with murderers and gang violence running 
rampant in their home countries.
    The United States has long stood with those who are fleeing 
persecution and violence. We have stood alongside them so they 
were not alone. We have stood behind them to give them the 
ability to make a new life here. And we have stood up for them 
to make it clear that there is no place in this world for the 
atrocities that drive people to leave their homelands.
    That is who we are, and that is what we do. And it is what 
we need to continue to do, not just with words but with 
resources. I was disappointed this summer when we didn't see 
that same commitment from my colleagues on the other side of 
the aisle, and an important opportunity was missed to help meet 
the needs of these children.
    Fortunately, communities like my hometown of New York City 
have been stepping up to welcome these children. New York City, 
as a region, has been receiving some of the largest numbers of 
child migrants, with over 2,000 child migrants placed with 
family members or other sponsors in my city alone and another 
3,000 in the surrounding counties.
    I know there are a number of bills introduced that focus on 
notifying local officials when the Federal Government looks to 
house or place children in any particular area. Let me first 
say that I certainly don't think any of us would argue against 
greater communication between the Federal Government and local 
authorities. But it has to give enough flexibility to actually 
meet the needs of the situation, and it has to ensure that 
there are adequate confidentiality protections involved.
    Notification and information-sharing cannot become a way to 
target innocent children or the family members that are taking 
them in. And it can't be used as a way to block needed response 
efforts, leaving children out in the cold to score cheap 
political points.
    After the immediate need of housing these children during 
initial screenings, their needs don't end when they leave the 
Federal Government's custody to stay with their sponsors. New 
York City has taken on several important initiatives to help 
these children through the next stages.
    They have helped ensure legal representation for these 
children, with nearly $2 million over the next year in funding 
for legal services, provided by a combination of city and 
private funders. This is critical, as history has shown that 
over half of these children may be eligible to remain in the 
United States, such as by being granted asylum or visas for 
victims of trafficking.
    Beyond just the courthouse, New York City formed an 
interagency task force and published a comprehensive guide to 
legal, medical, mental health, and social services that they 
distributed in English and other languages.
    A major action has been to place representatives of the 
city's education and health agencies at the immigration courts 
themselves so that while the children's cases work their way 
through the legal system they can enroll in school or Head 
Start programs and get health care--programs they have a legal 
right to under State and city law and under legal decisions 
made over many years.
    We must recognize that our communities are best served when 
the children living here are in school and that they are 
healthy. It does us no good to drive them further into the 
shadows and deny them the access to these services.
    Our social service providers in our communities have also 
played a critical role in connecting children to needed 
services. They provide legal help, support the family 
reunification, and other direct services. They have frequent 
events that pair legal screening clinics with resources from 
city agencies and other social services and community groups, 
and they will continue to do so. These groups are on the front 
line in the neighborhoods where these children live, and I 
thank them for all their continued efforts.
    It might be easy for some to pretend that the urgency of 
this issue has somehow diminished as the number of children 
arriving in recent months has decreased, but there is more that 
has to be done. Just like we can't solve immigration reform by 
simply militarizing our border and pretending that solves the 
problem, we can't help these children by simply shutting them 
out and avoiding their needs. Yes, it may be challenging and it 
may not be easy, but it is a challenge that is best served by 
addressing it head-on, like my hometown of New York City has 
done. Let's not shy away from the challenges. Let's rise to 
them.
    And I thank you, Mr. Chairman.
    Mr. Labrador. Thank you, Mr. Crowley.
    [The prepared statement of Mr. Crowley follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. And thank you, all of you, for your 
statements.
    As is customary, we will not ask the Member panel to stay 
for questions. You are dismissed. Thank you very much for being 
here today.
    And we will now take a moment to let the second panel of 
witnesses take their place and prepare for their testimony.
    We thank our second panel for joining us today.
    If you would please rise, I will begin by swearing you in.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Let the record reflect that all witnesses responded in the 
affirmative.
    Thank you, and please be seated.
    We are honored to have all of you here today, and I will 
introduce now each one of you.
    I will start with Mayor Leonard Scarcella. Leonard 
Scarcella currently serves as mayor of the city of Stafford, 
Texas, and is the longest continuously serving mayor in the 
United States. Mayor Scarcella graduated from Texas A&M 
University in 1962, attended the University of Houston Law 
School, and was admitted to the State Bar of Texas in 1967.
    Next, we have Ms. Jessica Vaughan. Ms. Vaughan currently 
serves as the director of policy studies for the Center for 
Immigration Studies. She has been with the Center since 1992, 
where her expertise is in immigration policy and operations 
topics such as visa programs, immigration benefits, and 
immigration law enforcement. Ms. Vaughan has a master's degree 
from Georgetown University and earned her bachelor's degree in 
international studies at Washington College in Maryland.
    Next, we have Sheriff Thomas M. Hodgson. Sheriff serves as 
the sheriff of Bristol County, Massachusetts. Upon assuming the 
role, Sheriff Hodgson has focused on corrections reform, public 
safety, and raising the standards for the Bristol County 
Sheriff's Office to enhance the primary mission of care and 
custody of inmates. Prior to being appointed sheriff, he was a 
former Maryland police lieutenant for specialty operations, 
joined the staff of the Bristol County Sheriff's Office, and 
served as deputy superintendent of investigations. He also 
served 5 years as a counselor-at-large on the New Bedford City 
Council.
    And, finally, we have Ms. Kristyn Peck. Ms. Peck is the 
associate director of children's services with the United 
States Conference of Catholic Bishops, where she implements 
their programming and protection efforts for vulnerable 
migrating children. In this capacity, Ms. Peck and the 
children's services team oversee a national network of more 
than 200,000 dioceses and other community-based social service 
agencies providing family reunification and specialized foster 
care services to unaccompanied refugee and immigrant children. 
Ms. Peck has a master's in social work and a bachelor's in 
journalism from the University of Maryland.
    As the second panel prepares for their testimony, I again 
ask that each witness summarize his testimony in 5 minutes or 
less. To help you stay within that time, there is a timing 
light on your table. When the light switches from green to 
yellow, you will have 1 minute to conclude your testimony. When 
the light turns red, it signals that the witness' 5 minutes 
have expired.
    And, Mr. Scarcella, we will start with your testimony.

                TESTIMONY OF LEONARD SCARCELLA, 
                    MAYOR OF STAFFORD, TEXAS

    Mr. Scarcella. Thank you so much, Mr. Chairman, Committee 
members.
    Mr. Labrador. If you could turn your microphone on, that 
would be great.
    Mr. Scarcella. Thank you, Mr. Chairman, Committee members. 
It is indeed a privilege to be here today to address you in 
regard to what we consider to be a most important issue, this 
hearing being on the impact of local communities of the release 
of unaccompanied alien minors and the need for consultation and 
notification.
    I am the mayor of the city of Stafford, Texas, which has 
common boundaries with the city of Houston and the city of 
Sugarland and is one of the fastest-growing areas in the Nation 
and is some roughly 365 miles from the Mexican-American border.
    This legislation, as I understand it, is intended to 
specifically address the impact on local communities, and we 
are very interested and concerned about that. The bills which 
are before and being discussed here I want to stress that I 
strongly endorse, mainly for the reasons of making sure that we 
have a place at the table and that we are able to participate 
in how these children, unaccompanied alien children, are dealt 
with.
    Let me just simply say, fortunately, we have not had any of 
those children come to Stafford, but we do have a point of 
reference in a somewhat analogous situation, which Congressman 
Olson alluded to earlier. When Hurricane Katrina literally 
blasted the Louisiana coast, within hours we had hundreds of 
people coming into Stafford. Many of those were children. We 
immediately began to assist them in terms of housing, care, and 
education, and we are very proud of the record that we 
established at that time.
    What we would like to emphasize is that we have some--in a 
school system that had less than 3,000 children, we had 179 of 
those children enrolled in the Stafford Municipal School 
District, which is the only municipal school district in the 
State of Texas. And that was at the beginning of the 2005-2006 
school year. As it turned out, we educated those children 
through that process and literally had to do quite a bit of 
alteration in our school to accommodate them and to elevate 
them to the level of our students that we had in SMSD.
    There are a couple of things that stick out in my mind even 
9 years later. One of those is the fact that, obviously, all of 
those children had some parental support in Stafford with them. 
The other thing was that they all spoke English.
    Obviously, the situation with these unaccompanied alien 
children is that most of them, if any, don't have any parental 
support, and the other concern is that none of them speak 
English. And, consequently, even though we have tried very 
diligently in our small school system to have a strong 
bilingual or language program--and we have some 37 different 
languages in our schools--still, it is very difficult to get 
the teachers necessary to address this.
    What I want to emphasize is that, of these children that 
came, of the 179 that came, at the end of that school year 76 
were still there and had benefited from it.
    The point, too, that I would like to make and that I think 
is so important is that we recognize the humanitarian 
obligations and the obligations to be compassionate with these 
youngsters. We also recognize the concerns of the citizens. And 
it must be emphasized that not only are you talking about 
housing these children and the----
    Mr. Labrador. If you could summarize your testimony in 10 
seconds or less. We have run out of time.
    Mr. Scarcella. I would just--thank you, Mr. Chairman. I 
would just simply say, in conclusion, that we recognize that 
there are significant costs for food, clothing, education, and 
we would like to be in the discussion to determine how that 
could best be utilized and effected.
    Mr. Labrador. Thank you, Mr. Mayor.
    [The prepared statement of Mr. Scarcella follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. Ms. Vaughan?

 TESTIMONY OF JESSICA M. VAUGHAN, DIRECTOR OF POLICY STUDIES, 
                 CENTER FOR IMMIGRATION STUDIES

    Ms. Vaughan. Good afternoon, and thank you for the 
opportunity to testify today.
    The Obama administration's decision to allow virtually all 
of these so-called unaccompanied minors from Central America to 
live here indefinitely, and their family members too in most 
cases, has imposed a significant fiscal and logistical burden 
on many American communities.
    We are all sympathetic to the hardships and challenges that 
many of these young people have had to endure, but the Federal 
Government also needs to consider the impact of its policies on 
the localities where they are resettling. Communities that have 
had to absorb even relatively small numbers of UACs have 
incurred significant new and unforeseen expenses for schooling, 
health care, and other support. The bills we are discussing 
today would give State and local governments a voice in one 
important part of the resettlement decisionmaking process.
    And we have heard the numbers. And the vast majority of 
these aliens are here because their parents, who are usually 
also here illegally, paid a criminal smuggling organization to 
transport them. And because the parents understand that, once 
they make it here, the government will allow the kids to stay, 
enroll them in school, provide health care and other social 
services and that the parents will be allowed to stay, too, as 
a sponsor, that provides a tremendous incentive for them to do 
this.
    This is not a false rumor, as the Administration has 
claimed. According to ICE, 98 percent of the unaccompanied 
minors have been released to family members in the United 
States. Despite claims that the Administration is trying to 
send them home, last year ICE deported only 1,901 UACs and, at 
the same time, booked 56,000 onto its docket over the course of 
the same year.
    Most of these 1,900 deportations of minors actually were 
cases from prior years. That is because these cases have been 
deliberately funneled into our dysfunctional immigration court 
system, where it can take up to 5 years to resolve them. So 
this is not a temporary issue for the communities that have to 
absorb these arrivals; communities are going to be dealing with 
these costs for years.
    Education is the most significant cost, and the problem is 
not just the numbers but the fact that so many of the new 
arrivals have had only a few years of schooling in their home 
country. Some have never even held a pencil before, I am told. 
Everyone agrees that the students need support to succeed, and 
no one begrudges them that, but the problem is how to pay for 
it.
    Yesterday, I met with a State lawmaker who represents the 
town of Milford, Massachusetts, which has received--they 
enrolled about 30 of these new arrivals in the public high 
school in September. The town finance committee just completed 
its calculations. The cost of educating the new arrivals will 
be about half-a-million dollars for this year alone. That is a 
lot of money for a small town of 28,000 people that has a 
lower-than-average per capita income in the State. And there is 
no offsetting tax revenue.
    Another city near me, Lynn, Massachusetts, received 250 new 
high school students for this year because of this influx of 
unaccompanied minors. They had to increase their education 
budget 9 percent, which is $8 million. As a result, the city 
had to cut other vital programs and services that affect the 
quality of life in that town for everybody. Community policing 
was ended, a firetruck order had to be cancelled, and there 
were other belt-tightening measures.
    Louisiana's Jefferson Parish got 533 UACs and had to hire 
almost 70 new teachers. The total cost: $4.6 million.
    The estimate of the average national cost is about $11,000 
per child--more in some areas, less in others. So I estimate 
that is about $600 million per year for just 1 year's arrivals. 
And so the $14 million that has been talked about in the budget 
is just a drop in the bucket for that cost.
    Of course, there are healthcare expenses, as well. 
Typically, that has to be funded by the public, as well.
    And local officials have also raised a lot of concerns 
about fraud in the program because of the apparent lack of 
diligent screening on the part of ORR and DHS agencies. There 
have been cases of clearly ineligible adults claiming to be 
unaccompanied minors and individuals with arrest warrants and 
other problems, with no apparent response or concern on the 
part of ICE or other Federal agencies involved. If the 
screening by Federal officials who process these cases cannot 
detect those falsely claiming to be minors, it is unlikely that 
they are also going to find the criminals or other threats to 
public safety either.
    Local communities are going to have to be alert to the 
emergence of gang activity, as has happened in a prior wave of 
illegal immigration from Central America, with ICE now having 
deprioritized gang disruption and unlikely to be much help in 
that.
    Enactment of these bills would certainly help, but the most 
effective way to alleviate the strain on communities caused by 
the influx of UACs is for Congress to clarify that only those 
trafficking victims and truly unaccompanied juveniles----
    Mr. Labrador. If you could summarize your testimony in 10 
seconds or less.
    Ms. Vaughan. Thank you.
    Mr. Labrador. Thank you very much, Ms. Vaughan.
    [The prepared statement of Ms. Vaughan follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. Sheriff?

                TESTIMONY OF THOMAS M. HODGSON, 
            SHERIFF OF BRISTOL COUNTY, MASSACHUSETTS

    Sheriff Hodgson. Chairman Labrador, Members of the 
Subcommittee, thank you for the opportunity to testify before 
you this afternoon.
    When President Obama signed the Deferred Action for 
Childhood Arrivals in January 2012, we experienced a dramatic 
surge of unaccompanied minors entering the United States 
illegally. This unprecedented influx of illegals quickly began 
overtaxing our resources and our infrastructure.
    In Massachusetts, we have received 1,400 unaccompanied 
minors and 90 in Bristol County alone since January from 
January to August of 2014.
    One of the immediate effects was the compromising of our 
public safety and national security. Individuals with gang 
affiliations, including association with transnational gangs, 
began weaving themselves into the fabric of our communities. It 
was reported recently that one of these minors admitted 
committing his first murder at the age of 8.
    Safe houses have been established in border communities and 
are used to hold illegals who want to enter other States 
undetected. These minors are being held in those houses and are 
being sexually and physically abused and exposed to illegal 
drugs. Eventually they are smuggled into our communities, in 
need of social services and counseling and other public 
assistance.
    Our border security has been severely compromised, as the 
officers have been redirected from enforcement and surveillance 
efforts to processing and babysitting duties for illegal 
minors. Consequently, drug cartels have accelerated their 
efforts to increase drug and human trafficking into the United 
States, and that is felt in communities throughout the country. 
The incidence of sexual abuse, murder, and other crimes, 
reported or not, have been attributed, in part, to illegal 
aliens.
    Thousands of these unaccompanied minors are being placed in 
foster care in municipalities throughout the country with 
little or no notification to local officials or the community 
at large. The cost to taxpayers is staggering. For example, the 
total tax dollars paid to Baptist Children and Family Services 
for care of 2,400 minors over a period of 120 days was $183 
million.
    Additionally, many minors are placed with distant relatives 
or friends, legal or not, who are supposed to guarantee the 
individual appears for their immigration hearing. We know that 
70 percent do not report for the hearing. They are difficult to 
locate, given the resources that are needed and aren't 
available.
    With regards to public health, we recognize that the 
majority of illegals arrive from countries that have lower 
standards of health care, which contributes to inordinate 
numbers of cases of chicken pox, tuberculosis, scabies, 
respiratory diseases, and other communicable diseases. 
Processing centers, such as Chula Vista, California, and 
Artesia, New Mexico, were quarantined because of the amount of 
communicable diseases found in those facilities.
    The cost for medical care for illegals is astronomical and 
exacerbated by the fact that even processing centers must use 
expensive emergency room treatment.
    The impacts extend beyond absorbing minors, as the border 
surge has a ripple effect. For example, hundreds of ICE 
detainees in Texas were diverted to Massachusetts to make way 
for the influx in south Texas for the surge of immigrants 
coming in.
    Besides the travel costs impacting ICE's local capacity to 
detain illegal aliens arrested in this region, one of the 
transferred ICE detainees was hospitalized, who came to us in 
our area, and taxpayers incurred millions of dollars of medical 
expenses for his treatment. He was subsequently returned to 
Texas at taxpayers' expense and, after all the trouble, was 
released. This incident illustrates how the border surge 
disrupted ICE operations nationwide and imposed unnecessary 
expenses on taxpayers.
    Keep in mind that there are thousands of unaccompanied 
minors who are entering our country undetected and unprocessed 
for contagious diseases, creating even greater risk, living in 
our neighborhoods and enrolling in our schools.
    I am sure you understand from my testimony today that 
allowing people to enter our country illegally and then 
granting them amnesty creates an unfair hardship on the 
American people and those who are legal residents. Innocent 
people are losing their lives, and others are being exposed to 
communicable diseases.
    American tax dollars, to the tune of $40 billion a year, 
are spent to provide services for people who violated our laws 
by entering and living in our country. Given our deteriorating 
infrastructure, joblessness, homelessness, need for improving 
our education system, loss of benefits for our elderly and war 
veterans, we need to make certain that our tax dollars are 
reinvested for the purposes they were intended.
    In the interests of public safety, public health, 
expenditure of taxpayers' money, I believe it would be useful 
to have legislation that allows communities to have input 
before Federal authorities place unaccompanied minors in our 
communities.
    Mr. Labrador. Thank you very much.
    [The prepared statement of Sheriff Hodgson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. Ms. Peck?

  TESTIMONY OF KRISTYN PECK, ASSOCIATE DIRECTOR OF CHILDREN'S 
         SERVICES, U.S. CONFERENCE OF CATHOLIC BISHOPS

    Ms. Peck. Good afternoon. I am Kristyn Peck, director of 
children's services for Migration and Refugee Services of the 
United States Conference of Catholic Bishops. I would like to 
thank Chairman Bob Goodlatte and Ranking Member John Conyers 
for holding this hearing today. I would also like to thank 
Representative Rauul Labrador and Ranking Member Zoe Lofgren 
for their leadership.
    I testify today on behalf of the U.S. Conference of 
Catholic Bishops in support of unaccompanied migrating 
children, many of whom are fleeing violence in Central America. 
These children should be provided the opportunity to submit 
their protection claims in a safe environment that ensures 
their best interest in accordance with U.S. and international 
laws.
    As you know, Mr. Chairman, USCCB testified before this 
Committee in June and laid out our policy recommendations for 
protecting these children. With your permission, I would like 
to resubmit our testimony from that hearing for today's record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Ms. Peck. Mr. Chairman, let me say up front that the U.S. 
Bishops acknowledge the right of our Nation to control its 
borders and the right of States and local communities to know 
who is being placed in their jurisdictions and for what 
purpose. As I will outline, however, we have grave concerns 
that the bills under consideration would undermine our Nation's 
ability to protect vulnerable children.
    Mr. Chairman, I would first like to address one premise of 
this hearing and of the bills under consideration, namely that 
these children may be a threat or a burden to our Nation.
    As we have testified previously, the majority of these 
children are fleeing violence from organized criminal networks 
in Central America. We believe that this is a refugee flow and 
that the majority of these children would qualify for refugee 
protection under U.S. law and international law. Therefore, we 
would oppose efforts to undermine what is our obligation to 
these children under the law.
    We do not believe these children pose a threat to our 
communities. And, in fact, they are much more likely to be 
victimized because of their vulnerabilities.
    Further, child shelters positively impact communities by 
providing opportunities for local employment and encouraging 
local partnerships. We find that when communities learn more 
about unaccompanied children and have the opportunity to 
interact with them they are richer because of it.
    Second, these bills imply that the American public overall 
is not welcoming of these children. Our experience has been 
much different. I was heart-warmed by the outpouring of support 
my office received this summer. Myself, I received hundreds of 
calls a day from individuals offering assistance to these 
children and offering to foster these children. And the main 
question that we received was not why were they here but how 
can I help.
    Third, while we understand State and local communities' 
need for information and transparency about facilities for 
unaccompanied children, mechanisms for this information-sharing 
already exist.
    Rather than improve collaboration, these bills would 
require public hearings to be held as long as 90 days after 
notification, delaying our government's ability to promptly 
place children in shelters. This is unnecessary. As you know, 
States and local jurisdictions have the authority to hold 
hearings on these matters without them being required after a 
lengthy delay imposed by the Federal Government.
    In the meantime, children would be left in the custody of 
Customs and Border Protection and housed in restrictive and 
substandard conditions for far longer than the 72-hour limit, 
in violation of current law, the Flores v. Reno settlement, and 
the best interests of the child. I might add, it would take 
Customs and Border Protection away from its main mission of 
protecting our borders.
    Finally, many of these bills will give States or local 
jurisdictions the option to deny placement of these children. 
This, again, would backlog the system, leaving children in 
inappropriate settings and burdening Customs and Border 
Protection.
    Mr. Chairman, our specific concerns with these bills can be 
found in our written statement. Instead of adopting these 
bills, which would create inefficiencies in the system and 
undermine our ability to protect children, we recommend the 
following steps.
    First, Congress should resource the immigration court 
system by providing more immigration judges and attorneys. This 
would ensure that children receive due process in a much 
shorter timeframe without undermining their rights.
    Second, post-release services for children should be 
expanded to assist families with navigating the complex 
educational, social service, and legal systems. Currently, only 
10 percent of children placed with their families receive post-
release services.
    Finally, the best-interest-of-the-child principle should be 
incorporated in all procedures impacting children's lives. 
Adhering to this principle would ensure that all policies and 
procedures are child-friendly, that children and families are 
able to provide meaningful feedback on decisions affecting 
their lives, and that recommendations to ensure the safety, 
permanency, and wellbeing of these children are integrated into 
decisionmaking.
    Mr. Chairman, how we respond to these vulnerable children 
among us is a test of our moral character. America and the 
American people are generous and welcoming, especially as they 
learn more about the horrific stories of these children and 
witness their resiliency, their hope, and their abundant 
gratitude.
    We look forward to working with you, Mr. Chairman, and the 
Committee on improving the system so that both the best 
interests of the child and the best interests of our Nation are 
served.
    Thank you.
    Mr. Labrador. Thank you, Ms. Peck.
    [The prepared statement of Ms. Peck follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Labrador. And thank you all.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself.
    I am going to start with you, Ms. Peck. You just said that 
how we respond to these children is a test of our moral 
character. How many children in the world would benefit from 
being in the United States?
    Ms. Peck. I think for children who have a refugee claim and 
who meet our----
    Mr. Labrador. How many are there? Don't you think--first of 
all, most of these children do not have a refugee claim. But, 
second of all, do we with the ability to take care of every 
single child that is in the world right now that would benefit 
from being in the United States?
    Ms. Peck. I would like to refer you to the United Nations 
High Commissioner for Refugees' ``Children on the Run'' 
report----
    Mr. Labrador. Would you please answer my question?
    Ms. Peck [continuing]. Which found that 58 percent of the--
--
    Mr. Labrador. No, that is not----
    Ms. Peck [continuing]. Children interviewed----
    Mr. Labrador. Would you answer my question?
    Ms. Peck [continuing]. Met international protection. You 
asked----
    Mr. Labrador. So how----
    Ms. Peck. My answer is 58 percent of the children arriving 
would be eligible for a refugee claim, and that is how many 
we----
    Mr. Labrador. So we need to--so we would have 58 percent of 
the children in the world, we want them to come to the United 
States?
    Ms. Peck. I think that children who are eligible for 
protection under our laws----
    Mr. Labrador. Don't you think the President's actions are 
actually encouraging children to come to the United States and 
that it is actually less safe for them to be traveling through 
these dangerous places to come to the United States?
    Ms. Peck. I have heard the argument that the President's 
actions are----
    Mr. Labrador. Okay, so you have heard the argument. Let me 
just read to you what----
    Ms. Peck. That is not what I have heard from the families 
and children that we have served. We have been providing 
services to this population for more than 20 years.
    Mr. Labrador. But what they are telling the USCIS agents 
that are encountering them is that it is exactly the 
President's actions that are encouraging them to come to the 
United States.
    In fact, I would like to submit for the record, I have an 
article from the Prensa Libre in Guatemala--it is in Spanish--
and it was only 2 weeks after the President's actions here on 
November 20.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

                           TRANSLATED VERSION

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Mr. Labrador. And this article indicates that there is now 
an increase of people coming from Guatemala because of the 
President's actions, because they believe that coming to the 
United States will entitle them to stay in the United States, 
number one, and, number two, they understand that the cartels 
are now going to be using this information to bring children to 
the United States.
    And it is just a fact. I know you don't believe it, and I 
know the persons to my left don't believe, but it is a fact 
that people are coming to the United States because of the 
President's actions, making their lives less safe. And what you 
are trying to do right now is tell us that it is not happening. 
In fact, you say that it is not making these communities less 
safe.
    Sheriff, can you tell us how you believe that some of these 
children are making these communities less safe?
    Sheriff Hodgson. Well, first of all, we are seeing a rise 
in transnational gang activity in our communities throughout 
the country.
    Mr. Labrador. I think it is a fiction, according to Ms. 
Peck.
    Sheriff Hodgson. Well, it is not. So, look, we have our 
boots on the ground. We are out there on the street. We know 
what is going on. We are seeing--there is a rise in sexual 
abuse going on, with the illegal immigrant population coming 
in. We are seeing the victimization of these illegals, which is 
raising crime in our communities, Mr. Chairman. It is----
    Mr. Labrador. So, in fact, it is these same children that 
are actually being victimized.
    Sheriff Hodgson. Well, let me--yeah. And let me point out 
something, Mr. Chairman, that you brought up, which is very 
important.
    This thousand-mile trek that they are on, the cartels have 
turned this into a human trafficking business, multimillion-
dollar human trafficking business. In addition to that, mothers 
are giving their children, their teenage daughters, birth 
control pills before they make this thousand-mile trek because 
they know their daughters are probably going to get raped at 
least once.
    I don't believe and I don't think anybody on this 
Committee, I hope, doesn't believe that that is humane. It is 
not a way to encourage people to come to this country, and 
certainly not illegally. And to have them exposed to that, with 
no support when they get here for the trauma and the 
difficulties they have gone through along the way, is 
absolutely a disaster with regards to crime.
    Mr. Labrador. Ms. Vaughan, what do you have to say about 
this?
    Ms. Vaughan. Well, that is consistent with what I have been 
hearing from local officials and from law enforcement officers.
    And, you know, certainly, what we know from the 
intelligence reports that have been released from the DHS 
agencies and from numerous media reports from reporters who 
interviewed these kids, what they say is that they are coming 
because they know that they will be allowed to stay, that they 
are going to get a permiso or, you know, that they have been 
sent for by their parents. That is what they say.
    Mr. Labrador. Sheriff, how would it help you to be notified 
of the people that are coming to your community?
    Sheriff Hodgson. Well, first of all, we need to know who is 
coming in. Some of these--we refer to them as minors, but the 
fact of the matter is a number of these individuals have had 
associations with gangs like MS-13 and other gangs that are 
notable in our country that are creating serious crime problems 
in our community.
    So for us in the community to know, for anyone coming in, 
not only for domestic security but for our national security--
that is why Secure Communities was put in place, so that we 
could know quickly who is here and why are they here. We need 
to know what their backgrounds are. Because, otherwise, we 
can't carry out the fundamental responsibility that government 
has and we have in law enforcement, which is to protect the 
safety of the people of our community.
    Mr. Labrador. Thank you. My time has run out.
    And I would submit to you, Ms. Peck, that it would be more 
humane and it would be a test of our moral character if we 
actually stopped encouraging people to come to the United 
States and enduring all of these actions that are happening to 
many of these children.
    And now I will turn time over to Ms. Lofgren. I recognize 
Ms. Lofgren, the Ranking Member of the Subcommittee.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And it has been interesting to listen to this.
    Mr. Mayor, I read your testimony very carefully. Before I 
was in Congress, I was in local government for 14 years, the 
board of supervisors, not city council, but I know it is 
important and not easy to be in local government.
    I did want to make this observation. You mentioned the 
infamous 3 a.m. Phone call, but here is the deal. Under the 
law, for DHS to place a child in a program, that program has to 
be licensed. And I don't know about Texas, but in California, 
if you are going to have a licensed facility--you know, when we 
were on the board, we would get notice and there was this whole 
process to make sure that they meet the criteria.
    So nobody is just going to get dumped in the middle of the 
night in a warehouse without violating the law. I mean, that is 
just not what is done. I just wanted to reassure you on that 
point.
    Going back to you, Ms. Peck, you know, in Ms. Vaughan's 
testimony, her written testimony, she argues that the vast 
majority of these children couldn't possibly be trafficking 
victims because they have family members in the United States 
and mentioned that Border Patrol, you know, inquires. And, in 
fact, many of these children do have relatives, including a 
parent, in the United States.
    How can you reconcile the trafficking suggestion you made 
in your testimony with the fact that some of these children 
might also have a family member here?
    Ms. Peck. Thank you.
    Many children may be joining family members, but that 
doesn't mean that they aren't also victims of crime or have 
been victims of trafficking or en route to trafficking 
situations. And we don't know that until we have given them the 
opportunity to be released to their caregivers or to a safe 
space where they can establish trust with an attorney and 
articulate their claims.
    What is undoubted is that these children are victims of 
crime, as we have established. I went to Central America with 
the Bishops in November of 2013, and we interviewed children 
and families in Central America, in Honduras, Guatemala, and El 
Salvador. And I interviewed children who were victims of 
trafficking, myself, and who were en route to the U.S. to 
reunify with family because they were escaping trafficking 
situations in Central America.
    Ms. Lofgren. So when you went down to Central America, did 
you find the situation--I mean, one of the things that is 
interesting is that the rise in the number of unaccompanied 
children coming to the United States, it is not just the U.S. I 
mean, there has been a tremendous increase just from these 
three countries--Honduras, Guatemala, El Salvador--to the U.S., 
but also they are not coming from other countries, and there 
has been, like, a 700--more than 700 percent increase in 
children escaping to other countries in--well, in Central 
America as well as to Mexico.
    Does that comport with the information you saw and that the 
Catholic Bishops investigated when you went down to Central 
America? What is the violence situation that you investigated?
    Ms. Peck. That is right.
    And let me add that the U.S. Bishops have been providing 
service to these children for more than 20 years, and we saw 
the narrative shift before DACA was passed. We saw the 
narrative shift in around 2009.
    And we actually did a report of children that we served 
between October 1st of 2007 through June 1st of 2011, and what 
we found was that between 2009 and 2010 the number of children 
reporting fleeing violence in their home country nearly 
doubled. In fact, the increase in violence and the coinciding 
increase in children prompted our trip to Central America.
    And what we had found is, although the reasons for 
migration in each of those three countries differed slightly, 
that the prevailing narrative is that there has been an 
increase in generalized violence by gangs. Although gangs have 
always existed in these countries, they have now become more 
organized. They are now working with transnational criminal 
organizations, which are targeting children because of their 
vulnerability.
    Ms. Lofgren. I would just like to note that, although, you 
know, sometimes people say these kids will never show up, the 
actual data from the Department indicates that, from 2005 
through June of this year, just looking at the records of 
nondetained unaccompanied minors, 78.6 percent of the children 
who were not detained actually showed up for their hearing. And 
if they were represented by counsel, that number went to 92.5 
percent. So these kids are showing up for their hearing.
    And I know my time is up, but I would like to ask unanimous 
consent, Mr. Chairman, to place into the record documents from 
the U.S. Committee for Refugees and Immigrants; the Church 
World Service; Lutheran Immigration and Refugee Service; 
Annunciation House; Women's Refugee Commission and Kids in Need 
of Defense; the National Immigrant Justice Center; and the 
chart from the Department of Homeland Security about the 
numbers of children and the countries they are fleeing from.
    Mr. Labrador. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Ms. Lofgren. I yield back.
    Mr. Labrador. Now I will recognize the gentleman from 
Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Labrador.
    I am interested to hear from the associate director of the 
bishops' services a little bit more about some of the 
misunderstanding that I--I hear different statements, 
assertions of fact from different witnesses, and maybe we can 
get a little more clarification on that.
    What about the causes of the current migration? You have 
talked to lots of those people coming in, young people and 
others. But how did we get into the situation that brings us 
all here today? I would like to hear your ideas on that, 
please.
    Ms. Peck. Thank you.
    As I mentioned, we have been providing family reunification 
and foster care services to these children for 20 years. And we 
began to see that children were reporting increasingly violent 
trauma histories over the past 5 years or so.
    And what children are reporting is that at very early ages 
they are being targeted and recruited by gangs. They are being 
recruited on the buses as they are on their way to school. This 
is quite graphic, but when young girls are approached by gang 
members to be their girlfriends, they are gang-raped. And if 
they don't consent to the rape, there have been noted stories 
of gang members putting dismembered body parts of girls on the 
buses so the girls know what will happen if they don't comply.
    When we were at a return center for deported migrants in 
San Salvador in November of 2013, I was speaking with the 
mother of a 16-year-old girl. The 16-year-old girl had been 
repeatedly harassed by a neighborhood gang. And this mother was 
so ashamed that she had let her child migrate to the United 
States. She understands the dangers very well. And what she 
said to me is, ``I know it is not the best solution, but what 
else can we do?'' She said, ``We have no place to go.''
    She told me that she tried to work from home and cut hair 
so that she could supervise her daughter during the afternoons. 
School in El Salvador lets out at 12 noon, so children are 
unsupervised in the afternoon. She said the gangs demanded that 
she pay rent money, and she wasn't able to make the payments. 
And she saw what happened when you don't pay the rent to the 
gang members. You get killed.
    And so she closed her business and began working in a 
nearby town, and that left her child vulnerable to harassment 
by the gangs. And so she said to me, ``It is an intolerable 
situation. I know the journey is dangerous, but it is dangerous 
here.''
    Mr. Conyers. Goodnight.
    Now, about whether these children enroll in the public 
schools as soon as they get here, is there some modification of 
that assertion so that they don't end up in public schools 
right away?
    Ms. Peck. Yeah. Let me clarify that.
    Children who are placed in the Federal custody of the 
Department of Health and Human Services in their network of 
shelters are not enrolled in public schools. Health and Human 
Services provides, through its cooperative agreements through 
agencies such as the one I work for, funding for education to 
be provided on site at the agency.
    Mr. Conyers. What about the costs of the food, clothing, 
and shelter? Isn't that shared? Isn't there some government 
responsibility there?
    Ms. Peck. Likewise, that is also paid for under the grants 
that Health and Human Services has with its subcontractors, 
such as the U.S. Conference of Catholic Bishops. And they 
provide subcontracts through the agencies to provide food, 
shelter, clothing, education, and case management services.
    Mr. Conyers. Now, what advice, finally, would you leave 
with this Committee, this Subcommittee, which has a great 
concern about these young people, the dangers that they are in 
if they stay. They are in danger if they leave; it is a very 
risky flight.
    Are there some things that we might focus on more 
particularly that will give them aid and comfort?
    Ms. Peck. First, let me say I have been working on behalf 
of these children for 10 years, and I am inspired each time I 
talk with these children by their resilience and by their hope 
and their faith and their gratitude despite what they have been 
through.
    And I learn so much more from these children than they 
learn from me. And I find that when I speak to the communities 
that we work with and our partners that they find the same. And 
when they have the opportunity to serve these children, they, 
too, are inspired and touched by the resilience and the hope of 
these children.
    And so what I would encourage us to do is ensure that any 
decisions that are made don't repeal the protections we have 
put in place for unaccompanied children, that we allow them to 
have a safe space while they are able to articulate their 
protection claims, and that that space is in the least 
restrictive setting, such as a shelter or foster care placement 
through Health and Human Services, and that we do invest in 
providing more resources to the immigration process so that 
these cases----
    Mr. Labrador. Your time has----
    Ms. Peck [continuing]. Do go through the court system more 
quickly.
    Mr. Labrador. Your time has expired.
    Mr. Conyers. Thank you very much, Chairman Labrador. And--
--
    Mr. Labrador. Thank you.
    Mr. Conyers [continuing]. The witness is very inspiring 
yourself.
    Mr. Labrador. Thank you very much.
    Just a quick follow-up to that question. Why don't they 
apply for refugee status at home? If 58 percent of them are 
eligible for refugee status, they--if they all qualify, they 
would all be able to come, and they wouldn't have to go through 
that harrowing trip to the United States.
    Ms. Peck. Representative Labrador, I would agree with you, 
and I think that would be great if there were in-country 
refugee processing. And I know that there has been--that has 
been passed and is starting to be implemented. And I would like 
to see what comes out of that, because we would like for 
children to be able to get here safely.
    Ms. Lofgren. Would the gentleman yield on that point?
    Mr. Labrador. Yes.
    Ms. Lofgren. Because it is just actually just been started, 
the refugee application process, in Honduras only, not--it is 
not possible to apply in El Salvador, Guatemala now, but there 
is a new pilot effort. And I am hopeful that that will work, 
because none of us think it is a great idea for these kids to 
be traveling by themselves thousands of miles.
    And I thank the gentleman for yielding.
    Ms. Peck. Right.
    Mr. Labrador. So I now recognize the gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me welcome the mayor of my neighboring city, the mayor 
of Stafford.
    Thank you, Mayor, for being here. We see each other often. 
And thank you so very much for your service to our community 
and to the Nation.
    Let me, if I might, we use these hearings to educate 
ourselves and certainly to educate our witnesses as we exchange 
important ideas, because that is what this process is all 
about.
    So I do want to follow up on your testimony, Mayor, and 
just want to make sure you feel comfortable that, in the State 
of Texas, if unaccompanied children are to be housed, you would 
have no fear, because every facility, whether they were in 
Stafford or Houston, would have to be licensed, and so, during 
that, you would be notified.
    Are you aware of any licensed facilities in Stafford that 
have the unaccompanied children?
    Mr. Scarcella. We do not have a licensed facility in 
Stafford, Congresswoman.
    And let me just say this. What my fear is and what we have 
had a couple of situations, which, fortunately, didn't 
materialize the way we anticipated initially, but we would have 
situations where the police department got calls in the early 
morning about having to do something in regard to a particular 
individual who they thought might be an unaccompanied alien.
    Ms. Jackson Lee. But it didn't turn out to be that.
    Mr. Scarcella. It did not.
    And I want to say one thing, since you brought up about 
Houston and Stafford. We in Texas and our emergency services 
director and our emergency services coordinator have a great 
relationship with ICE and with the CPS. And that is something 
that we feel very comfortable with, in communicating with them. 
We would just like to make sure we have the best 
communication----
    Ms. Jackson Lee. And we will.
    And so, could you just answer this ``yes'' or ``no''? Do 
you think it is important to fully fund Homeland Security and 
fund it for an entire year? Would you say ``yes'' or ``no''?
    Mr. Scarcella. Yes.
    Ms. Jackson Lee. And I am glad that you said that because 
we are in the midst of a debate about partial funding of 
Homeland Security, and we have one of the major city mayors 
saying that that would not be the right direction.
    Let me ask the sheriff, Sheriff, do you know what the 
population of Massachusetts is?
    Sheriff Hodgson. I don't know the population of 
Massachusetts----
    Ms. Jackson Lee. Can you just give me a guesstimate maybe?
    Sheriff Hodgson. Not off the top of my head, Congresswoman. 
I can tell you my county is 650,000.
    Ms. Jackson Lee. Okay. And I understand that the population 
in the last census was 6.6 million.
    Do you know how many, in the last fiscal year, 
unaccompanied children that you may have had?
    Sheriff Hodgson. In Bristol County, we had 90 in--just 
between January and August, we had 90 placed in our county. We 
had 1,400 placed in Massachusetts.
    Ms. Jackson Lee. In actuality, the number was 1,372 between 
2013 to 2014, and you just recently got 33.
    So juxtapose that number against 900,000 in your county and 
then 6.6 million. When we look at the numbers, it doesn't 
appear to be a crisis.
    Are you trying to suggest that the youngsters who are in 
your jurisdiction, are these the ones that walked across the 
border and walked to Massachusetts? Is that what you are 
saying?
    Sheriff Hodgson. Well, we don't know that all of them 
walked across the border. We know they are being placed there, 
but there is a number that are----
    Ms. Jackson Lee. Yeah, but did they----
    Sheriff Hodgson. Congresswoman----
    Ms. Jackson Lee [continuing]. Did they just randomly walk 
across and then randomly get to Massachusetts?
    Sheriff Hodgson. We have some in our county that aren't 
accounted for in the numbers you are referring to, absolutely.
    Ms. Jackson Lee. And how do you know they are unaccounted 
for?
    Sheriff Hodgson. Because we have far more illegals. We 
have--we have got----
    Ms. Jackson Lee. But we are talking about unaccompanied 
children.
    I guess the question I am asking is, in particular, you 
know there is a process--and, by the way, I introduced 
legislation for more immigration judges--there is a process. 
They are processed at the border. There is a proceeding. We 
need more immigration judges; we agree with you on that. And 
then they are placed.
    And they may be placed with parents, who are paying taxes 
in your community. And they may not be paying income taxes, but 
they are paying the local taxes because, by their very 
existence, they have to pay taxes on food, on utilities, on 
rent. They are doing that.
    So juxtapose against 900,000. I am trying to understand 
what your burden may be for 1,400 children.
    Mr. Labrador. The gentlelady's time has expired, and we 
have two more people who need to question, and we need to go 
vote. So if----
    Ms. Jackson Lee. Mr. Chairman, I think you went over your 
time, and I----
    Mr. Labrador. I know, but we have to go----
    Ms. Jackson Lee [continuing]. Would like the gentleman to 
be able to answer the question.
    Ms. Lofgren. Well, the problem is that Luis and Mr. Garcia 
will not be able to ask their questions at all----
    Mr. Labrador. Yes.
    Ms. Lofgren [continuing]. If we don't stick to the 5-minute 
rule.
    Ms. Jackson Lee. Well, let me--with that acknowledged, I 
will thank the gentleman for his answers.
    I yield back.
    Mr. Labrador. Thank you.
    I now recognize the gentleman from Illinois.
    Mr. Gutierrez. Thank you, Chairman Labrador.
    Well, I guess we have once again the, kind of, tale of two 
cities here. We have one person that sees children in need of 
protection fleeing such harm in Central America, Honduras in 
particular, the murder capital of world. That is how she sees 
them. She sees them as human beings. And then we have other 
people who have come to testify, and they see them as 
criminals, drug dealers, rapists, murderers, and people who 
show up never having touched a pencil.
    I am in such fear of anybody coming to America with not 
having touched a pencil. The last time I thought about somebody 
having not touched a pencil, I think of my own two daughters 
when they were infants and little girls, and I assure you, they 
inspired no fear in me. One day, they did touch a pencil. And 
one day, all of those children, because they arrived in 
America, will learn not only about a pencil but they will learn 
about the goodness of this Nation, the United States of 
America.
    I mean, how can we come here and talk about studies for 
immigration? There are 1-million-plus refugees right now in 
Jordan. There are 1-million-plus refugees right now in Lebanon; 
in Turkey, 1 million that left and fled the Assad regime. If we 
were to take your practices, I guess they would all be sent 
right back to Assad to be murdered by that regime. That is what 
you are saying.
    Sheriff Hodgson. No, I am not.
    Mr. Gutierrez. And don't shake your head. That is exactly 
what it is.
    The problem that you have, sir--let me tell you what the 
problem----
    Sheriff Hodgson. If you would let me respond, Congressman. 
I would like to respond.
    Mr. Gutierrez. No. I am speaking.
    Sheriff Hodgson. Okay.
    Mr. Gutierrez. I am speaking.
    The problem that you have is that when you see, you see 
children, you see criminals, you see demonization. But let me 
just share something with you. When my mom and my dad and 
approximately a million Puerto Ricans came to this country as 
American citizens, as American citizens to the United States of 
America, the same thing you say about the immigrants and the 
children crossing the border were said about my mom and my dad, 
and they came as American citizens. They said, could you only 
stop them from coming from that tropical island, bringing 
tropical diseases? It wasn't like my mom and dad, as American 
citizens, when they came here--but they were seen as different. 
They were seen as somebody who was threatening.
    But it wasn't only my mom and my dad. Let me tell you, the 
same assertions that have been made here today were made about 
Italian immigrants, were made about Irish immigrants, were made 
about Chinese immigrants to the point that we had a Chinese 
Exclusion Act.
    Look, what we should be doing here is not demonizing and 
criminalizing children. We have one standard when it comes to 
what the countries of Lebanon should do and then another one, 
what we should do with people fleeing violence.
    I think the real problem here is, when we look at our 
immigration policies, if it is, like, from a tyrannical 
dictator, we say, oh, okay, maybe we should accept those 
people. But let me tell you, the tyranny that exists, the life 
which is lost in Central America? It is our border. It is our 
border.
    Now, it seems interesting to me that--what is it that fuels 
all of this? The police kind of said, the sheriff said it was 
the drug dealers and the drug cartels. Let me think. The drug 
cartels that use American dollars, American weapons, because of 
the consumption of the drugs right here in the United States of 
America? Those drug cartels?
    Then what is our responsibility, as the main provider of 
funding and arms in Central America that have a destructive and 
corrosive effect on those societies, that then make little 
girls coming with never having touched a pencil in their life? 
What fear it brings into my heart and to my soul as an American 
that I would see such a child. You know what I say? I say, then 
let's give them a pencil so they can learn how to write, so 
they can be educated.
    That should be--we should be a country that understands the 
tradition. I mean, I could understand if there were three 
Native Americans there saying, ``What are you doing in my 
country?'' But this is a Nation of immigrants.
    And the same kind of testimony--but here is the good thing. 
Your arguments have been rejected in the past time and time 
again. They are not new. There is nothing novel that you are 
saying here today. They have been rejected in the past by 
America, they were rejected today by America, and they are 
going to be rejected, because that is the greatness of this 
Nation.
    What we should be doing is we should be having a 
conversation about comprehensive immigration reform and 
reforming our immigration system.
    Last thing I am going to say. Nothing here today has put 
one more Border Patrol agent on the border to secure us against 
the border, not one thing you have said--or E-Verify to make 
sure that Americans are the first ones in line for American 
jobs. Nothing you have said has made us safer.
    What it has is----
    Mr. Labrador. The gentleman's time has expired.
    Mr. Gutierrez [continuing]. It just repeats a history that 
we have heard before.
    Mr. Labrador. Thank you, Mr. Gutierrez.
    And now I will yield a couple of minutes to the gentleman 
from Florida.
    Mr. Garcia. Thank you, Mr. Chairman. I appreciate it.
    Sheriff, I know you are trying to do your job, and I 
appreciate you have a tough job to do.
    Sheriff, I would suggest to you you read a--there is a 
wonderful piece called ``The Myth of the Deceased Immigrant.'' 
As Mr. Gutierrez points out, this is nothing new. It exists, 
and it is a human reaction to what they fear, to what they 
don't know.
    I will give you just one fact of that. Sheriff, do you know 
what percentage of American children are vaccinated?
    Sheriff Hodgson. Vaccinated?
    Mr. Garcia. Vaccinated. Just general vaccination.
    Sheriff Hodgson. I don't.
    Mr. Garcia. Well, it is about 92 percent. In Texas, it is 
much lower, but--in big cities, it is much lower. But the 
average nationally is 92 percent.
    However, do you know what the average is of the three 
countries--El Salvador, Guatemala, and Honduras--for children? 
It is 93 percent. All right? They are vaccinated in a more 
regular--probably because there is a program just set up to do 
that and requires people to do it.
    I am sure in Massachusetts you have all sorts of parents 
that decide they don't want their kids vaccinated, all sorts of 
reasons, and we have a sort of ability to exclude that.
    You mention about these children coming to the United 
States not having parents. Sheriff, do you know what percentage 
of these children were going to be reunited with one or both 
parents, just as a ballpark?
    Sheriff Hodgson. Don't know the percentage, no.
    Mr. Garcia. Fifty-five percent of these children were 
reunited with their parents.
    And then, finally, Sheriff, do you know what the two safest 
cities, large cities, in America are?
    Mr. Hodgson. I don't.
    Mr. Garcia. They are San Diego and El Paso, Texas, right 
there on the border, right there where all these drug 
trafficking children----
    Sheriff Hodgson. May I respond to that, Congressman?
    Mr. Garcia. Absolutely, sir.
    Sheriff Hodgson. Well, that would have a lot to do with the 
fact that the illegals that are coming across don't stay there. 
They migrate their way into our communities across the Nation. 
And that is why we are becoming border States.
    Mr. Garcia. Sheriff, they migrate to my community, too.
    Sheriff Hodgson. Okay.
    Mr. Garcia. And they are a resource and a----
    Sheriff Hodgson. But that would be the reason why, 
Congressman, that they aren't having----
    Mr. Garcia. No, I understand your point.
    Sheriff Hodgson [continuing]. The crime problem in those 
communities.
    Mr. Garcia. I understand your point, Sheriff. But the 
reality is that--you scream at the border, but the reality is 
that--do you know, for example, in the last decade if we are 
spending more on the border or less?
    Sheriff Hodgson. I can assure you----
    Mr. Garcia. The Chairman has called----
    Sheriff Hodgson. I am sorry. I thought you asked a 
question. I am sorry.
    Mr. Garcia [continuing]. My time here, but I appreciate you 
all being here. Thank you.
    Sheriff Hodgson. Thank you. Thank you, Congressman.
    Mr. Labrador. Thank you very much, Mr. Garcia.
    Ms. Lofgren. Before we close----
    Mr. Labrador. Before we close, I just want to give Mr. 
Hodgson just 30 seconds to respond.
    There were a lot of allegations coming your direction. Do 
you have anything to say, just for 30 seconds?
    Sheriff Hodgson. Other than the fact that the sheriffs in 
this country have--we have our boots on the ground, we know 
exactly what is going on on the border. I know there are a lot 
of people who sort of surmise what is happening and hear 
different arguments, but we know exactly what is happening, and 
we know what is happening with ICE in regards to not being able 
to enforce border security.
    Mr. Labrador. Thank you.
    Ms. Lofgren?
    Ms. Lofgren. I would just like to say briefly what a 
pleasure it has been to serve with Congressman Joe Garcia. I 
think this is probably Mr. Garcia's last meeting of the 
Immigration Subcommittee. He has a fine mind and is a very 
diligent person and has really represented his district with 
tremendous distinction and grace and hard work.
    And we wish you well in the future.
    Ms. Jackson Lee. Would the gentlelady yield? Would the 
gentlelady yield?
    Ms. Lofgren. I will yield, but we have to go because----
    Mr. Labrador. We have to go.
    Ms. Lofgren [continuing]. We are running out of time on the 
vote.
    Ms. Jackson Lee. Let me add my appreciation to Mr. Garcia. 
I have seen him work both in Washington and out of Washington. 
He is an asset to this Nation.
    And let me thank U.S. Catholic Charities for your 
distinctive work and your humanitarian work and the particular 
work you do in Houston, Texas.
    I yield back.
    Mr. Labrador. Thank you.
    With unanimous consent, I would like to enter into the 
record a press release by the Brunswick County, Virginia, 
Sheriff's Office dated June 20, 2014, and a National Review 
article entitled, ``The Obama Official Responsible for Sending 
Unaccompanied Illegal Minors Across the Country Is Resigning,'' 
dated December 9, 2014.

    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Mr. Labrador. With that, this concludes today's hearing. We 
thank all of the witnesses for joining us today.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    And this hearing is adjourned.
    [Whereupon, at 4:43 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 [all]

</pre></body></html>
